Audit of USAID’s Results Data for
Its Education Activities in Iraq
Report No. E-266-04-001-P
March 19, 2004




                 Baghdad, Iraq
March 19, 2004


MEMORANDUM

FOR:          James E. Stephenson, USAID/Iraq Director

FROM:         John M. Phee, Acting Director of Audit Operations in Iraq /s/

SUBJECT:      Audit of USAID’s Results Data for Its Education Activities in Iraq
              (Report No. E-266-04-001-P)


This memorandum is our report on the subject audit. This report contains one
recommendation with which you concurred in your response to the draft report.
Based on the actions you have taken in response to the audit finding a
management decision has been reached and final action has been taken on this
recommendation. Therefore, the recommendation is considered closed upon
issuance of this report.

I appreciate the cooperation and courtesies extended to the members of our audit
team during this audit.
(This page intentionally left blank)




                                       2
Table of   Summary of Results                                            5
Contents
           Background                                                     6

           Audit Objective                                                8

           Audit Findings                                                 8

                Has USAID accurately reported data and results for its
                education activities in Iraq?                             8

                     Reported Data Needs to be Checked for Accuracy      9

           Management Comments and Our Evaluation                        16

           Appendix I – Scope and Methodology                            17

           Appendix II – Management Comments                             19




                                                                              3
(This page intentionally left blank)




                                       4
Summary of   USAID/Iraq is the newest USAID Mission and was established on July 27, 2003.
Results      As a new Mission, USAID/Iraq has not completed an Annual Report on the past
             performance of its activities. The Mission will formally report its progress in its
             first Annual Report in fiscal year 2005. However, the Mission has reported some
             of its more noteworthy accomplishments in the Iraq Reconstruction Briefing Book
             (Briefing Book), which highlights the accomplishments of the various
             USAID/Iraq programs.            This Briefing Book is used for Congressional
             Presentations for Congressional Delegations (CODELs) visiting Iraq and provides
             information on the status of activities in Iraq. Because of the degree of interest in
             all activities in Iraq, the information in the Briefing Book receives a great deal of
             attention. (See page 7.)

             In this audit we examined eight accomplishments or reported results of the
             USAID-funded educational program in Iraq that were contained in the Mission’s
             Briefing Book dated October 31, 2003.1 These eight reported accomplishments
             resulted from activities that were designed and implemented by partners who
             were funded by USAID. The audit found that the majority of items audited were
             under reported. For six of the eight results audited the Mission reported a number
             less than the number verified by the audit. One of the results audited agreed
             exactly with the number reported. While, on the other hand, for one of the eight
             results, the Mission reported a number greater than the number verified by the
             audit. (See page 8.)

             The Mission’s process for reporting data could be improved by developing
             procedures to verify data included in reports prior to the issuance of the reports to
             ensure the data reported is accurate. (See page 15.)

             USAID/Iraq agreed with the recommendation in the audit report and based on the
             actions the Mission has taken in response to the audit finding, a management
             decision has been reached and final action has been taken on the recommendation.
             Therefore, the recommendation is considered to be closed upon issuance of this
             report. (See page 15.)




             1
               This Briefing Book contained eleven results data items; for this audit we chose the eight results
             data items that contained a quantity of materials delivered to the final recipients (e.g. schools,
             students, etc.).



                                                                                                              5
Background   On May 2, 2003, USAID began directing more than $1.5 billion in U.S. assistance
             in Iraq. A USAID Mission in Iraq was established on July 27, 2003 to manage
             USAID reconstruction and humanitarian relief assistance being delivered through
             45 grants and contracts to American nonprofit organizations and firms. In
             coordination with the Coalition Provisional Authority (CPA), other U.S.
             government agencies, and international organizations, USAID and partners are
             revitalizing public education in Iraq by laying the foundation for sustainable,
             decentralized quality education at the primary and secondary school levels. The
             immediate goal was to enable children to return to their classrooms at the
             beginning of the school year in October 2003.

             Prior to the 1990s, Iraq had one of the best education systems in the Middle East
             with universal primary school enrollment and high rates of literacy among
             women. However, a decade later school enrollment for all ages declined to
             approximately 73 percent. While most schools in the country were not damaged
             during the conflict, renovations and repairs are greatly needed. Additionally,
             many schools suffered as a result of the widespread postwar looting and
             vandalism, which left the schools without plumbing, lavatories, light fixtures,
             wiring, desks, windows, and doors.

             In response to urgent needs of the Iraqi educational system, USAID has made
             assistance to the education system one of its top priorities. Prior to the start of the
             school year, USAID had extended three contracts and nine grants to a number of
             USAID contractors, USAID grantees, and UN organizations to rehabilitate and
             supply Iraqi schools with educational materials and supplies. USAID funding for
             educational activities in Iraq is approximately $116 million. This audit covered
             educational program activities from the inception of the program on May 2 to
             October 31, 2003.

             Specifically, USAID is implementing its education activities primarily through
             the following partners:

                •   Creative Associates International, Inc. (Creative) is USAID’s primary
                    contractor for implementing educational activities in Iraq. Creative is
                    implementing the “Revitalization of Iraq Schools and Stabilization of
                    Education” (RISE) project which focuses on the distribution of school
                    materials, equipment and supplies; education reform and accelerated
                    learning; and training and upgrading teachers and schools leaders.
                    According to Mission data, $37,853,000 has been obligated and
                    $30,403,000 has been disbursed for Creative activities as of October 31,
                    2003.




                                                                                                  6
       •   Bechtel National, Inc. (Bechtel) is the USAID contractor that is
           reconstructing and rehabilitating the infrastructure throughout Iraq
           including the majority of the schools being rehabilitated by USAID. The
           funds obligated by USAID for all Bechtel’s work in Iraq, per the
           Mission’s records, as of October 31, 2003 totaled $1,029,833,0002 and the
           amount disbursed is $145,036,000.

       •   Under the Iraq Community Action Program (ICAP), there are five non-
           governmental organizations, which are assisting in the development of
           community-based activities in Iraq including the rehabilitation of schools.
           Obligated funds per the Mission’s records at October 31, 2003 totaled
           $70,000,0003 and $13,807,000 has been disbursed.

       •   USAID has made grants to fund part of the activities of UNESCO4 and
           UNICEF5. These two partners have provided support to basic education
           including: providing five million revised textbooks; teacher and student
           kits; teacher training; and accelerated learning. Obligated funds per the
           Mission’s records for these two grants as of October 31, 2003 totaled
           $17,000,000 and the amount disbursed is $6,490,000.

As required, USAID/Iraq will formally report the progress of its activities in an
Annual Report. However, the first Annual Report will be filed for fiscal year
2005. Currently, the Mission has reported some of its more noteworthy
accomplishments or results in a document called the Iraq Reconstruction Briefing
Book6 (Briefing Book), which highlights the accomplishments of the various
USAID/Iraq programs.          This Briefing Book is used for Congressional
Presentations for Congressional Delegations (CODELs) visiting Iraq and provides
information on the status of activities in Iraq. The Briefing Book is not intended
to be a comprehensive report of the Mission’s activities; rather, it focuses on
selected accomplishments. Nevertheless, because of the degree of interest in all
activities in Iraq, the information in the Briefing Book receives a great deal of
attention.




2
    Approximately $49 million was for school reconstruction.
3
    Approximately $12.5 million are for school rehabilitation.
4
    United Nations Educational, Scientific, and Cultural Organization.
5
    United Nations Children’s Fund.
6
    Actual title on the cover is “Our Commitment to Iraq USAID.”


                                                                                    7
Audit Objective   The USAID OIG has developed an audit strategy to address performance and
                  financial issues being faced by USAID during its implementation of
                  reconstruction efforts in Iraq. This audit report was designed to answer the
                  following audit objective:

                  Has USAID accurately reported data and results for its education activities
                  in Iraq?

                  Appendix I contains a complete discussion of the scope and methodology of the
                  audit.




Audit Findings    Has USAID accurately reported data and results for its education activities
                  in Iraq?

                  USAID did not accurately report data and results for its education activities, as
                  seven of eight items reported in the USAID Briefing Book were different from the
                  amounts verified by the audit. As described below, seven of eight items reported
                  in the USAID Briefing Book were different from the amounts verified by the
                  audit. Of the seven items that were different, six reported results were less than
                  what was verified by the audit; that is, more was actually accomplished than
                  USAID/Iraq reported. One item exceeded the amount verified by the audit.




                  Photograph of Al Majidat School in Al Hillah, which has 563 students and was rehabilitated
                  by Bechtel National, Inc. (BNI) with USAID funds. (Photograph taken on December 3, 2003)


                                                                                                               8
Reported Data Needs to
be Checked for Accuracy

Agency guidance stresses the importance of the quality and accuracy of reported
information. The amounts verified by the audit were different from the number
reported for seven of eight results. Several causes contributed to this condition,
including the lack of established procedures to verify the accuracy of data before it is
reported. Reporting information that is not accurate presents a potential for
misunderstanding by decision makers and interested parties.

USAID’s Automated Directives System (ADS) 578.3.1 requires originating
offices to review information products for compliance with information quality
guidelines, which stress the importance of high quality and accurate results
reporting information.

In response to section 515 of the Treasury and General Government
Appropriations Act for Fiscal Year 2001 (Public Law 106-554), the Office of
Management and Budget (OMB) issued its Guidelines for Ensuring and
Maximizing the Quality, Objectivity, Utility, and Integrity of Information
Disseminated by Federal Agencies. OMB designed these guidelines to help
agencies ensure and maximize the quality, utility, objectivity and integrity of the
information that they disseminate (meaning to share with, or give access to, the
public). These OMB guidelines require agencies to meet basic information
quality standards. Furthermore, OMB directed agencies to develop information
resource management procedures for reviewing and substantiating (by
documentation or other means selected by the agency) the quality (including the
objectivity, utility and integrity) of information before it is disseminated.

USAID adopted these guidelines in ADS 578. This ADS chapter includes the
basic standards of these guidelines: quality, objectivity, utility and integrity.
“Objectivity” includes whether disseminated information is being presented in an
accurate, clear, competent, and unbiased manner. ADS 578.3.1 requires
originating offices to review information products for compliance with the
information quality guidelines in ADS 578 at every step, including the creation,
collection and maintenance of information, before it is disseminated. In addition,
GAO’s Standards for Internal Controls in the Federal Government state that all
transactions and significant events need to be clearly documented, and that the
documentation should be readily available for examination.

Eight education activity accomplishments or results included in the Mission’s
Briefing Book dated October 31, 2003 is the focus of this audit. Seven of the
eight reported results audited were inaccurate; that is, the number verified by the
audit was different from the number reported. The table and discussion below
illustrates our audit results and causes for the differences.




                                                                                      9
                                 Table of Reported Results
                             for Educational Activities in Iraq
                                        (At October 31, 2003)



    Item       Accomplishment/                 Number            Number        Difference
     No.       Result Description              Reported         Per Audit

     1     Schools rehabilitated.                1,500            1,356     144 or
                                                                            9.6 percent over
                                                                            reported
     2     Primary student kits delivered to    404,000          462,160    58,160 or
           Iraqi Ministry of Education                                      14.4 percent under
           warehouses.                                                      reported
     3     Secondary student kits delivered    1,125,000        1,198,080   73,080 or
           to Iraqi Ministry of Education                                   6.5 percent under
           warehouses.                                                      reported
     4     Primary teacher kits delivered.       61,300           81,735    20,435 or
                                                                            33.3 percent under
                                                                            reported
     5     Chalkboards delivered.                19,1407         28,182     9,042 or
                                                                            47.2 percent under
                                                                            reported
     6     Pieces of secondary school           180,750          198,474    17,724 or
           furniture delivered.                                             9.8 percent under
                                                                            reported
     7     Math and science textbooks                48              48     -
           grades 1-12 edited.                                              0%
     8     Textbooks printed.                  5,300,000        5,452,204   152,204 or
                                                                            2.9 percent under
                                                                            reported



Schools rehabilitated is defined by the Mission as being school buildings to
which repairs (such as painting, plumbing, electrical, etc.) have been started, but
not necessarily completed.       The school rehabilitation program is being
accomplished through contracts, grants, and cooperative agreements with ten
different partners8. The Mission reported in its Briefing Book that 1,500 schools
had been rehabilitated. However, the number identified by the audit was 1,356
schools. (See item 1 in Table on page 10.)


7
 The number of chalkboards delivered is also included in the number item 6, pieces of secondary
school furniture delivered.
8
  The ten partners are Bechtel National, Inc. (BNI), Creative Associates International, Inc.
(Creative), International Relief and Development, Inc. (IRD), ACDI/VOCA, Save the Children
Federation, Inc. (Save), CHF International (CHF), Mercy Corps (Mercy), Research Triangle
Institute (RTI), Development Alternatives International (DAI), International Office of Migration
(IOM).



                                                                                             10
Photograph of Um Al-Banin School in Al Hillah. This school was rehabilitated by USAID funds
through a contract with Creative Associates International, Inc. (Creative). (Photograph taken on
December 3, 2003)



Primary9 student kits delivered is defined by the Mission as the number of kits
delivered to the warehouse of the Iraq Ministry of Education at each Directorate
Governorate10 (DG). The Ministry of Education Director General was to
subsequently distribute the student kits to individual schools. Each student kit
consists of a shoulder bag and contains pencils, an eraser, a ruler, a pencil
sharpener and some writing paper. According to Mission officials, USAID has
funded approximately one-third of this activity and the number reported
represents the initial one-third of all the deliveries. The Mission reported in its
Briefing Book that 404,000 primary student kits had been delivered; however, the
audit verified that 462,160 kits had been delivered. (See item 2 in Table on page
10.)


Secondary11 student kits delivered is defined by the Mission as being the
number of kits delivered to the warehouse of the Iraq Ministry of Education in the
DGs. The Ministry of Education Director General was to subsequently distribute
the student kits to individual schools. Each student kit (as shown on the next
page) consists of a shoulder bag and contains a ruler, a calculator, pens, pencils,
9
    A primary school in Iraq is equivalent to grades 1 – 6 in the U.S.
10
  Iraq has twenty-one Directorate Governorates (DGs); Baghdad is divided into four separate DGs
and the rest of Iraq is divided into seventeen other DGs.
11
     A secondary school in Iraq is equivalent to grades 7 – 12 in the U.S.


                                                                                             11
writing paper and a geometry set. The Mission reported in its Briefing Book that
1,125,000 secondary student kits had been delivered; however, the audit verified
that 1,198,080 kits had been delivered. (See item 3 of Table on page 10.)




Photograph of a secondary school student kit funded by USAID and distributed by Creative.
Each kit contains a shoulder bag, a ruler, a calculator, pens, pencils, a geometry set, and writing
paper. (Photograph taken December 13, 2003 at USAID/Iraq in Baghdad.)



Primary teacher kits delivered is defined by the Mission as the number of kits
delivered to the warehouse of the Iraq Ministry of Education at the DGs. Each kit
contains pens, pencils and writing books. USAID is funding approximately one-
third of this activity and the number reported represents the initial one-third of all
the deliveries. The Mission reported in its Briefing Book that 61,300 primary
teacher kits had been delivered; however, the audit had verified that 81,735 had
been delivered. (See item 4 in Table on page 10.)


Chalkboards delivered is defined by the Mission as the number of chalkboards
delivered and installed in schools. Also, this number is included as a component
of the next result—pieces of secondary school furniture delivered. The Mission
reported the progress of “chalkboards delivered” separately because the Coalition
Provisional Authority (CPA) and the Mission desired specific reporting on this
particular commodity due to concerns pertaining to delivery delays caused by
manufacturing and transportation problems. The Mission reported in its Briefing
Book that 19,140 chalkboards had been delivered; whereas the audit verified that
28,182 had been delivered. (See item 5 in Table on page 10.)




                                                                                                 12
Pieces of secondary school furniture delivered is defined by the Mission as the
separate pieces of furniture (i.e. student desks, teacher desks, teacher chairs,
cabinets, and chalkboards) delivered to schools. Chalkboards were included in
this result, as well as a separate result. According to the Mission staff responsible
for compiling the reported result, chalkboards are considered a necessary school
furnishing component and accordingly was included in the “school furniture
delivered” category. The Mission reported in its Briefing Book that 180,750
pieces of secondary school furniture had been delivered. The audit verified that
198,474 pieces of furniture had been delivered. (See item 6 in Table on page 10.)




Photograph of students at the Al Haitham School in Baghdad, which has 525 students and was
rehabilitated and re-equipped by USAID funds through a grant to International relief and
Development, Inc. (IRD). (Photograph taken November 30, 2003).



Math and science textbooks grades 1-12 edited is defined by the Mission as the
editing of selected math and science textbooks (48 different textbooks). The
Mission reported in its Briefing Book and the audit confirmed that 48 different
math and science textbook had been edited. (See item 7 in Table on page 10.)


Textbooks printed is defined by the Mission as the number of textbooks printed.
The Mission reported in its Briefing Book that 5,300,000 textbooks had been
printed, whereas, the audit verified that 5,452,204 textbooks had been printed.
(See item 8 in Table on page 10.)




                                                                                       13
Causes for differences

There is one primary reason for the difference in the number of schools
rehabilitated reported by the Mission and the number verified by the audit. The
Mission considered a school to be rehabilitated when the repairs had been made to
the school and when the school was functional, safe and conducive to learning.
Essentially, the Mission included in its data for “schools rehabilitated” all those
schools for which rehabilitation work was started but not necessarily completed.
The implementing partners reported a school rehabilitation project to be complete
when all the work was performed and inspected, and the final payment was made.
For the purpose of our audit, we used the same definition as the implementing
partners and considered schools to be rehabilitated when work was completed and
not simply started.

In addition, when reviewing the documentation, we found a problem with double
counting. ICAP implementing partners monitor and report their activities by
project. Under the partners’ reporting system one school may have two projects--
one project to rehabilitate the school and the other project to reequip the same
school. In this situation the same school may be counted twice.

The double counting of schools occurred because the Mission included schools
that were reequipped (e.g. supplied with furniture and educational materials), as
well as schools that were rehabilitated to determine the total number of schools
rehabilitated. This problem is only relevant to ICAP schools because only ICAP
projects may fund the reconstruction and/or reequipping of schools. Our analysis
of the all ICAP funded projects indicated that approximately 79 or fewer schools
were reequipped and rehabilitated and were therefore counted twice.

The Mission took immediate action to correct this situation by implementing a
procedure to review or analyze results data from the five ICAP partners so as to
count a school only one time in its results data even in those cases when a specific
school was reequipped reconstructed.12

Regarding the other seven items tested we believe the difference between the
results reported by the Mission and those verified by the audit is caused, in large
part, by the fact that the data in this Briefing Book was prepared by new and
lesser-experienced staff using a system that was still evolving. In addition, the
Briefing Book dated October 31, 2003—the source of the audited data—was
prepared when the project officer was out of the country. Furthermore, Mission
officials stated that some results data were under reported because results data
received late in October had not been verified when the October 31, 2003 Briefing
Book was being prepared.


12
  This double counting is a difference in definition and categorization between the Mission and
the ICAP partners. The Mission is counting schools to report results while the ICAP partners are
counting projects in order to manage different work at the same school.


                                                                                              14
Moreover, USAID/Iraq staff stated that the Briefing Book was not intended to be
a comprehensive report of the Mission’s activities; rather, it focused on a few
selected accomplishments, which the Mission believed were noteworthy examples
of the program’s progress. Although we believe that it is appropriate for the
Mission to choose the format for presenting results data and emphasizing specific
program accomplishments to best illustrate the status of its programs—the data
reported should be accurate.13

The effect of reporting inaccurate information—either reporting more or less than
what was actually accomplished—presents a potential for misunderstanding by
USAID/Washington and other interested users (such as CODELs) of the status of
the educational activities in Iraq. This may also lead to inappropriate conclusions
and decisions regarding the educational program in Iraq. Sound decisions require
accurate, current, and reliable information. To address the problem of inaccurate
information, the Mission needs to independently compare the results data to
source documents before the data is issued. Therefore, we are making the
following recommendation:

        Recommendation No. 1: We recommend that USAID/Iraq
        develop procedures to verify data included in reports prior to the
        issuance of the reports to ensure the data reported is accurate.




13
  In June 2003 the Mission awarded, under an indefinite quantity contract (IQC), a contract to
Management Systems International (MSI) to provide performance monitoring and evaluation of
USAID/Iraq’s technical portfolio. However, MSI did not mobilize personnel to Iraq until August
2003 and did not provide nor verify the data used in the Briefing Book dated October 31, 2003.


                                                                                           15
Management       USAID/Iraq agreed with the finding and recommendation in the draft audit report
                 and based on the actions the Mission has taken in response to the audit finding, a
Comments and
                 management decision has been reached and final action has been taken on the
Our Evaluation   recommendation. Therefore, the recommendation is considered to be closed upon
                 issuance of this report.

                 Recommendation No. 1 recommends that the Mission develop procedures to
                 verify data included in reports prior to the issuance of the reports to ensure the
                 data reported is accurate. The Mission concurred with this recommendation and
                 has taken appropriate action. In a letter dated January 24, 2004, the Mission
                 delineated instructions to MSI regarding their monitoring and evaluation work
                 activities. One of the monitoring instructions requested that MSI focus on data
                 cleaning and partnering with CTOs, area managers, implementing partners to
                 ensure the flow of quality data and timely delivery of project information.




                                                                                                16
                                                                                   Appendix I


Scope and     Scope
Methodology
              The Inspector General Audit Operations Team in Iraq conducted this audit in
              accordance with generally accepted government auditing standards. The purpose
              of the audit was to determine if USAID accurately reported data and results for its
              education activities in Iraq. USAID/Iraq has only recently been established and is
              still developing a system of management controls; our assessment of controls was
              limited to a review of the Mission’s self-assessment report for fiscal year 2003.
              The audit covered data reported for the Mission’s education activities for the
              period from May 2, 2003, when USAID began directing U.S. assistance in Iraq,
              through October 31, 2003. USAID has obligated approximately $116 million for
              education activities in Iraq as of October 31, 2003.

              The audit was conducted at USAID/Iraq’s office and USAID’s partners’ offices in
              Baghdad from November 3 to December 13, 2003. Specifically, we performed
              our audit field work at the offices of two contractors-- Bechtel National, Inc.
              (Bechtel) and Creative Associates International, Inc. (Creative), and one
              grantee—International Relief and Development (IRD). We were not able to visit
              the offices of UNESCO and UNICEF as the expatriate staff of these organizations
              has evacuated Iraq due to security concerns. We were also informed by Mission
              personnel that UNESCO and UNICEF local-hired employees were unwilling to
              speak with USAID auditors unless approval had been granted by UN
              Headquarters in New York City. Additionally, the auditors visited four schools
              located in Baghdad and two schools in the town of Al Hillah.

              Methodology

              To answer this objective, we examined the supporting documentation of the
              Mission and its contractors and grantees who had submitted results data that was
              included in the USAID/Iraq Briefing Book dated October 31, 2003. This Briefing
              Book contained eleven results data items; for this audit we chose the eight results
              data items that contained a quantity of materials delivered to the final recipients
              (e.g. schools, students, etc.).

              In answering the audit objective, because of the importance of USAID’s
              education program in Iraq to both USAID and to U.S. foreign policy, we defined
              reported data as being accurate if it was exactly what was verified by the audit
              and considered any deviations between what was reported and what was verified
              by the audit to be material.

              During our audit fieldwork, we performed limited tests of the Mission and its
              implementing partners’ system and controls relating to results reporting. For the
              implementing partners, we examined documentation provided by the primary four


                                                                                              17
partners14 implementing the Mission’s education activities and tested the accuracy
of the results that had been reported to the Mission. At USAID/Iraq, we
examined the roll-up of these results into the accomplishments contained in the
Mission’s Briefing Book. Additionally, we reviewed the Mission’s and
implementing partners’ monitoring and reporting process of the activities.

We reviewed the Mission’s first self-assessment report in compliance with the
Federal Managers Financial Integrity Act (FMFIA) for the fiscal year 2003 for
those management controls relative to the audit objective.

We also interviewed staff at the offices of the Mission and its implementing
partners, as well as administrators of the schools visited during our site visits, to
obtain their views and increase our understanding of the education program
activities. We made visual inspections of six schools which had received
assistance—four schools were located in Baghdad, Iraq and two schools were
located in the town of Al Hillah.




14
 The four primary implementing partners for USAID/Iraq’s educational activities are Creative,
BNI, UNESCO and UNICEF.


                                                                                            18
                                                                                              Appendix II

Management
Comments:




             MEMORANDUM

             DATE:             February 28, 2004

             TO:                John Phee, Acting Director of Audit Operation in Iraq

             FROM:             James Stephenson, Mission Director /s/

             SUBJECT:         Draft Audit of USAID’s Results Data for Its Education
                              Activities in Iraq (Report No. E-266-04-00X-P)

             Successes in the education program represent some of the major
             achievements in the USG’s efforts to improve the quality of life for the Iraqi
             people. By the beginning of the school year in October 2003 and in an
             effort to attend to the urgent needs in the education sector, USAID
             rehabilitated 1500 schools. In addition, 5 million textbooks had been
             printed and were under distribution, approximately 1.4 million student and
             kits were being delivered and all secondary schools had been fully
             furnished. At the same time USAID had placed five senior education
             advisors in the Ministry of Education to work along side the newly
             appointed minister and assist him and his Ministry in laying the
             foundations for future reforms in education.

             In October 2003, five months after the launching of USAID’s Education
             Program15, the Inspector General (IG) audited USAID’s Education
             Program. The IG’s audit was based on the “Iraq Reconstruction Briefing
             Book” (Briefing Book), dated October 31, which highlights general
             accomplishments under each sector. The Mission uses the briefing book
             as a means of informing visiting senior delegations, including members of
             Congress. This document is updated frequently, usually just before the
             arrival of a delegation. The information contained in the document

             15
               USAID-Iraq’s Education Year 1Program worth $80M consists of 3 primary education partners:
             UNICEF, UNESCO and Creative Associates International. The sector also has 6 secondary
             partners: Bechtel, Research Triangle International, Merci Corps, Save the Children, International
             Relief and Development, and the Cooperative Housing Foundation. These secondary partners
             have focused mainly on the rehabilitation of schools.


                                                                                                            19
primarily comes from our implementing partners, which is then verified by
USAID project managers and USAID’s independent monitoring and
evaluation contractor (i.e. MSI), which maintains the Mission’s project
information database.

During this first year, USAID’s education program has focused a great
deal of attention and resources on the procurement and distribution of
school materials and supplies and on the reconstruction of schools.
Accurate reporting of results and the pressure to respond to an enormous
number of informational requests from all levels of the USG required the
Mission to develop and implement an effective systematic monitoring
system as quickly as possible. In early August, the USAID education
team set in place a tracking and monitoring system that includes: 1)
specific indicators for tracking; 2) clearly defined reporting formats and
schedules of reporting for implementing partners; 3) a schedule for site
visits 4) weekly accomplishment reports, which are presented to Senior
USAID management and used to update official documents, including the
Briefing Book. This monitoring system was and continues to be
implemented under the leadership of the Education General Development
Officer, the Education Advisor and the Program Assistant. It is an inherent
part of this monitoring system that no information be reported in official
documentation unless it has been verified through the process above. In
general, it takes the education team 5 to 7 days to verify the information
received before that information is reported to external audiences.

The IG audit team found several discrepancies between information
reported in the Briefing Book and actual accomplishments. The principal
discrepancies follow:

          Table of Reported Results for Education Activities in Iraq
                          (At October 31, 2003)

   Item    Accomplishment/              Number      Number      Difference
   No.     Result Description           Reported    per Audit
   1       School Rehabilitated         1,500       1,356       144 or 9.6% over
                                                                reported
   2       Primary students kits        404,000     462,160     58,160 or 14.4
           delivered                                            percent under
                                                                reported
   3       Secondary student kits       1,125,000   1,198,080   73,080 or 6.5%
           delivered                                            under reported
   4       Primary teacher kits         61,300      81,735      20,435 or 33.3%
           delivered                                            under reported
   5       Chalkboards delivered        19,140      28,182      9,042 or 47.2%
                                                                under reported
   6       Pieces of secondary          180,750     198,474     17,724 or 9.8%
           school furniture delivered                           under reported
   7       Textbooks printed            5,300,000   5,452,204   152,204 or 2.9%
                                                                under reported


                                                                                   20
Regarding the over-reporting in item 1, the difference can be explained as
a difference in definitions. Early on in the school rehabilitation process,
the Mission held meetings with members from the CPA Ministry of
Education and USAID’s implementing partners who were involved in
school renovation. The definition we chose to use as “schools completed”
was one where the implementor had transformed the school into a
“functional, safe and conducive learning environment and in which
children were attending classes.” There is a significant lag between the
time a school is functional and when it is officially signed off as completed.
The goal of the program was to get children and teachers back into vastly
improved and upgraded schools – we accomplished this objective. This
accounts for the difference in USAID reporting and the IG’s findings.

As indicated in the table above, the IG noted that for items 2, 3, 4, 5, 6 and
8, USAID had under–reported its accomplishments. A time lag from
receipt of implementing partners’ reports to USAID review and inclusion of
information contained in those reports accounts for the under-reporting.
The methodology the IG used was to compare the information reported in
the Briefing Book with the October 31 monthly reports submitted by each
of the implementing partners. The education team simply had not
reviewed and verified the submitted data, and hence the updated
information was not included in the Briefing Book the IG team reviewed.
Important to note is that the audit took place during the height of the
distribution of goods period. As our partners’ daily submissions show,
numbers had large margins of fluctuation throughout October and
November.

USAID/Iraq appreciates the RIG’s audit process and draft report, and agrees
with the audit recommendation. During the audit process the continued
communication and discussions allowed the Education Team to identify and
set in place immediate procedures to strengthen the monitoring systems,
including assurances that double -counting would not take place. In
addition, we took the step of tightening up our monitoring systems across
the board by having MSI act as a clearing house for all information reported
to external audiences (see attached memo from USAID to MSI dated
January 24, 2004). It consumes much effort and will result in a delay of
reporting results, but we believe it will allow for greater consistency in the
reporting of our accomplishments. As the IG team noted in discussions with
the Mission, the situation on the ground is fast-paced and very fluid.
Accuracy is very difficult to ensure. However, the audit team’s findings did
help us come up with measures that have strengthened our monitoring
systems.




                                                                            21
USAID/Iraq believes that the actions described above satisfactory address
the significant findings of audit, and we believe that final action has been
taken and request that you consider recommendation number one closed
upon issuance of the final report.

Thank you for your assistance.




                                                                          22
